Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




        IOWA LACKED SOME
      DOCUMENTATION FOR ITS
      CHILDCARE ASSISTANCE
         PROGRAM CLAIMS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                       August 2012
                                                      A-07-11-03164
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The U.S. Department of Health and Human Services (HHS), Administration for Children and
Families (ACF), is responsible for promoting the economic and social well-being of children,
families, and communities. ACF carries out this responsibility through grants and contracts to
State, county, city, and tribal governments, as well as public and private local agencies.

Childcare Services Funded by Child Care and Development Fund

Pursuant to the Child Care and Development Block Grant Act and section 418 of the Social
Security Act, the Child Care and Development Fund (CCDF) is a Federal program that assists
low-income families, families receiving temporary public assistance, and families transitioning
from public assistance to obtain childcare so that family members can work or attend training or
education.

States provide subsidized childcare services to eligible families through certificates (vouchers) or
through grants and contracts with providers. Parents may select a childcare provider that
satisfies applicable State and local requirements. These requirements must address prevention
and control of infectious diseases, including immunizations, building and physical premises
safety, and certain minimum levels of health and safety training.

Administration of Child Care and Development Fund at State Level

Under the CCDF program, States have considerable latitude in administering and implementing
their childcare programs. Each State must develop, and submit to ACF for approval, a State plan
that identifies the purposes for which CCDF funds will be expended for two grant periods (i.e., 2
fiscal years (FY)) and that designates a Lead Agency responsible for administering childcare
programs. States are required to report childcare assistance expenditures to ACF on the quarterly
Child Care and Development ACF-696 Financial Report (ACF-696 report), which is a
cumulative report for the Federal fiscal year (FY).

In Iowa, the Department of Human Services (State agency) is the Lead Agency and is
responsible for administering the CCDF and other childcare assistance programs. Collectively,
these programs are known in Iowa as the childcare assistance program. As the Lead Agency, the
State agency is required to oversee the expenditure of funds by contractors, grantees, and other
agencies of the Iowa State government to ensure that the funds are expended in accordance with
Federal requirements.

Iowa Childcare Assistance Program

Iowa’s childcare assistance program is funded with State childcare and protective funds and
Federal CCDF funds. Iowa’s Employees’ Manual, Title 13, Chapter G, “Child Care Assistance”
(CCA manual), establishes the requirements, policies, and procedures used in administering the
childcare assistance program regardless of the funding source (Federal or State funds). During



                                                 i
the period of our review, the State agency used an automated system known as KinderTrack to
process and pay childcare assistance claims from providers.

The State agency’s requirements concerning the childcare assistance program are found in 441
Iowa Administrative Code, Chapter 170, “Child Care Services.”

The State agency paid childcare assistance claims totaling $88,070,775 for the period April 1,
2010, through March 31, 2011.

OBJECTIVE

Our objective was to determine whether the State agency maintained documentation to support its
determinations for client and provider eligibility and for claims processing, in order to ensure
compliance with Federal and State requirements for the childcare assistance program.

SUMMARY OF FINDINGS

The State agency did not always maintain adequate documentation to ensure that the paid claims
for the childcare assistance program complied with Federal and State requirements. With respect
to client eligibility, the State agency did not always maintain adequate documentation for
verification of citizenship, need for service, income, and age. With respect to provider
eligibility, the State agency did not always maintain adequate documentation for background
checks and provider agreements. With respect to claims processing, the State agency did not
always maintain adequate documentation for supervisory approval of certain payments involving
both service units and client/provider addresses. These documentation deficiencies indicate that
the State agency’s childcare assistance program may be vulnerable to fraud, waste, and abuse.

Of the 200 claims that we reviewed, we identified 57 claims that had client eligibility
documentation deficiencies, 45 claims that had provider eligibility documentation deficiencies,
and 27 claims that had claims processing documentation deficiencies (some claims had
documentation deficiencies in more than one category) as identified above. We estimated that
the costs affected by these documentation deficiencies totaled approximately $15.8 million
(approximately $10.6 million Federal share).

In addition, the KinderTrack system allowed claims to be paid even when at least two significant
data fields—“provider type” and “paid date”—had entries of zero. Specifically, 4,669 paid
claims had entries of zero in the data field for “provider type,” and 31,045 paid claims had
entries of zero in the data field for “paid date.” Payments associated with these incomplete
claims totaled approximately $5.9 million (approximately $4.0 million Federal share).




                                                ii
RECOMMENDATIONS

We recommend that the State agency:

   •   use the results of this review to establish policies and procedures to help ensure
       compliance with the Federal and State requirements—to include requirements that relate
       to the maintenance of adequate documentation—for the childcare assistance program;

   •   determine the current eligibility of all clients and providers identified in this review with
       documentation deficiencies and ensure that further childcare assistance payments are
       denied for those clients and providers who are ineligible; and

   •   improve the processing of the childcare assistance claims within the KinderTrack system
       to ensure that the claims are complete.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our first and second
recommendations and the associated findings and described corrective actions that it planned to
implement. The State agency did not concur with our third recommendation or with its
associated finding (regarding the data fields with entries of zero). The State agency said that
“[t]he providers in the system contain the proper codes and payments were made accurately. We
know that the process now works well and payments are made as they should be; it is the report
that does not reflect this.” The State agency added that it would make the necessary report
corrections to the KinderTrack system.

The State agency’s comments appear in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments regarding the data fields with entries of zero, we
maintain that this finding and recommendation remain valid. The State agency provided us with
claims data only, not with reports. The data fields with entries of zero appeared in the claims
data. We recognized that, by the end of our audit period, the number of claims with entries of
zero in the “paid date” data field had been substantially reduced. However, the number of claims
with entries of zero in the “provider type” data field had not been significantly reduced;
moreover, there were still claims with entries of zero in both data fields. The claims can not be
considered complete unless they are accurately reported by the State agency’s system.




                                                 iii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION..................................................................................................................... 1

          BACKGROUND ............................................................................................................ 1
              Childcare Services Funded by Child Care and Development Fund ................... 1
              Administration of Child Care and Development Fund at the State Level .......... 1
              Iowa Childcare Assistance Program ................................................................... 2
              Government Accountability Office Review ....................................................... 3

          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................................... 3
               Objective ............................................................................................................. 3
               Scope ................................................................................................................... 3
               Methodology ....................................................................................................... 3

FINDINGS AND RECOMMENDATIONS ........................................................................... 5

          CLIENT ELIGIBILITY DOCUMENTATION DEFICIENCIES .................................. 6
               Federal and State Requirements.......................................................................... 6
               Inadequate Documentation for Client Eligibility................................................ 7

          PROVIDER ELIGIBILITY DOCUMENTATION DEFICIENCIES ............................ 7
               Federal and State Requirements.......................................................................... 7
               Inadequate Documentation for Provider Eligibility ............................................ 8

          CLAIMS PROCESSING DOCUMENTATION DEFICIENCIES ................................ 8
               Federal and State Requirements.......................................................................... 8
               Inadequate Documentation for Claims Processing ............................................. 9

          INCOMPLETE CLAIMS ............................................................................................... 9

          COSTS ASSOCIATED WITH DEFICIENCIES ........................................................... 9

          RECOMMENDATIONS .............................................................................................. 10

          STATE AGENCY COMMENTS ................................................................................. 10

          OFFICE OF INSPECTOR GENERAL RESPONSE ................................................... 10




                                                                     iv
APPENDIXES

    A: SUMMARY OF SAMPLE ITEMS

    B: SELECTION OF 200 CHILDCARE ASSISTANCE PAID CLAIMS
       AND THE ESTIMATION METHODOLOGIES

    C: ESTIMATION RESULTS

    D: STATE AGENCY COMMENTS




                                 v
                                       INTRODUCTION

BACKGROUND

The U.S. Department of Health and Human Services (HHS), Administration for Children and
Families (ACF), is responsible for promoting the economic and social well-being of children,
families, and communities. ACF carries out this responsibility through grants and contracts to
State, county, city, and tribal governments, as well as public and private local agencies.

Childcare Services Funded by the Child Care and Development Fund

Pursuant to the Child Care and Development Block Grant Act and section 418 of the Social
Security Act, the Child Care and Development Fund (CCDF) is a Federal program that assists
low-income families, families receiving temporary public assistance, and families transitioning
from public assistance to obtain childcare so that family members can work or attend training or
education.

States provide subsidized childcare services to eligible families through certificates (vouchers) or
through grants and contracts with providers. Parents may select a childcare provider that
satisfies applicable State and local requirements. These requirements must address prevention
and control of infectious diseases, including immunizations, building and physical premises
safety, and certain minimum levels of health and safety training.

Administration of the Child Care and Development Fund at the State Level

Under the CCDF program, States have considerable latitude in implementing and administering
their childcare programs. Each State must develop, and submit to ACF for approval, a State plan
that identifies the purposes for which CCDF funds will be expended for two grant periods (i.e., 2
fiscal years (FY)).

Furthermore, the State plan must designate a Lead Agency responsible for administering
childcare programs. Federal regulations (45 CFR § 98.11(b)) state:

       In retaining overall responsibility for the administration of the program, the Lead
       Agency shall: …

       (5) Oversee the expenditure of funds by subgrantees and contractors;

       (6) Monitor programs and services; …

       (8) Ensure that all State and local or non-governmental agencies through which
       the State administers the program, including agencies and contractors that
       determine individual eligibility, operate according to the rules established for the
       program.




                                                 1
States are required to report childcare assistance expenditures to ACF on the quarterly Child
Care and Development ACF-696 Financial Report (ACF-696 report), which is a cumulative
report for the FY. The ACF-696 report summarizes the total childcare assistance expenditures
made by the State agency and identifies the funding sources (Federal or State funds) that the
State used for childcare assistance expenditures. The actual childcare assistance claims
submitted by providers and paid by the State agency are not transmitted to ACF.

In Iowa, the Department of Human Services (State agency) is the Lead Agency and is
responsible for administering the CCDF and other childcare assistance programs. Collectively,
these programs are known in Iowa as the childcare assistance program. As the Lead Agency, the
State agency is required to oversee the expenditure of funds by contractors, grantees, and other
agencies of the Iowa State government to ensure that the funds are expended in accordance with
Federal requirements.

Iowa Childcare Assistance Program

Eligibility Requirements

Iowa’s childcare assistance program is funded with State childcare and protective funds 1 and
Federal CCDF funds. Iowa’s Employees’ Manual, Title 13, chapter G, “Child Care Assistance”
(CCA manual), establishes the requirements, policies, and procedures used in administering the
childcare assistance program regardless of the funding source (Federal CCDF funds, State
childcare funds, and protective funds). During the period of our review, the State agency used an
automated system known as KinderTrack to process and pay childcare assistance claims from
providers.

Under Iowa’s childcare assistance program, childcare assistance may be provided to the children
of income-eligible parents who are absent for a portion of the day because of employment or
participation in academic or vocational training or PROMISE JOBS 2 activities. Assistance may
also be available for a limited period when a parent is looking for employment or when the
parent who normally cares for the child is absent from the home because of hospitalization or
outpatient treatment for physical or mental illness, or is present in the home but unable to care
for children (as verified by a physician).

Furthermore, childcare assistance is provided to people participating in activities approved under
the PROMISE JOBS program and to people who are recipients of FIP funds without regard to
childcare assistance program eligibility requirements if there is a need for childcare services.



1
 Protective funds are used for children with protective needs—that is, children who are subject to a protective
service plan to prevent or alleviate child abuse or neglect.
2
 The Family Investment Program (FIP) is Iowa’s Temporary Assistance to Needy Families program. FIP provides
cash assistance to needy families as they become self-supporting so that children may be cared for in their own
homes or in the homes of relatives. The PROMISE JOBS (Promoting Independence and Self Sufficiency through
Employment) program is part of the FIP and is designed to assist FIP recipients to become self-sufficient.



                                                          2
Lastly, childcare assistance for children with protective needs is provided without regard to
income. To receive protective childcare services, a family must meet specific requirements, and
childcare must be identified in the child’s case plan as a necessary service.

Approved childcare providers include (1) licensed childcare centers, (2) registered child
development homes, (3) nonregistered childcare homes, (4) in-home providers (i.e., within the
child’s own home), and (5) childcare programs that are exempt from licensing or registration.

The State agency’s requirements concerning the childcare assistance program are found in 441
Iowa Administrative Code (IAC), chapter 170, “Child Care Services.”

Government Accountability Office Review

A review conducted by the Government Accountability Office (GAO) revealed vulnerabilities in
the administration of the CCDF program in selected States. The GAO report (Undercover Tests
Show Five State Programs as Vulnerable to Fraud and Abuse (GAO-10-1062, issued September
2010)) found that the five States (Illinois, Michigan, New York, Texas, and Washington) that it
tested lacked controls over childcare assistance application and billing processes for unregulated
relative providers, leaving the program vulnerable to fraud and abuse.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency maintained documentation to support its
determinations for client and provider eligibility and for claims processing, in order to ensure
compliance with Federal and State requirements for the childcare assistance program.

Scope

We reviewed the childcare assistance claims totaling $88,070,775 that were paid by the State
agency for the period April 1, 2010, through March 31, 2011. We did not review the State
agency’s overall internal control structure because our objective did not require us to do so.

We conducted fieldwork at the State agency in Des Moines, Iowa, from December 2010 to
August 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and program guidance for the CCDF
        program;

   •    reviewed applicable State laws and the approved Iowa CCDF State plans related to the
        childcare assistance program;



                                                3
    •    reviewed the State agency’s ACF-696 reports for FYs 2009 through 2011 to determine
         the amount of childcare assistance payments that were included in each FY report and the
         breakdown of the payments charged to each funding source (Federal or State funds);

    •    interviewed State agency staff responsible for preparing the ACF-696 reports to obtain an
         understanding of how the reports were prepared, how the childcare assistance claims
         were reported, and what documentation the State agency maintained to support the
         childcare assistance claims;

    •    interviewed State agency staff to obtain an understanding of the policies, procedures, and
         guidance used to determine childcare assistance client 3 eligibility and provider eligibility;

    •    reviewed the State agency’s documentation used to prepare the ACF-696 reports;

    •    obtained the paid claims data from the State agency for the period April 1, 2010, through
         March 31, 2011;

    •    reconciled paid claims data to the State agency’s accounting system and the ACF-696
         reports, in order to ensure that the childcare assistance paid claims population represented
         the amounts claimed by the State agency for Federal reimbursement;

    •    divided the claims paid during our audit period into 4 strata by provider type and selected
         50 claims from each stratum (see Appendix B for our estimation and sampling plan); 4

    •    reviewed the selected 200 paid claims’ family case files (electronic or paper) to
         determine whether the files contained documentation for client eligibility determinations,
         and specifically:

             o determined whether each eligibility case file contained the completed application,
               citizenship documentation, and verification of family income and hours worked,
               and

             o recomputed the child’s age based upon date of birth and date of service to verify
               that the child was under 13 years old, unless special needs or protective needs had
               been documented;

    •    reviewed the provider files related to the selected 200 paid claims to determine whether
         the files contained documentation for provider eligibility determinations, and specifically
         determined whether each provider file contained documentation for the required
         background checks and evaluations, the required provider forms, and an approved
         provider application;


3
 We use the term “client” to describe the child for whom the provider is being paid and the family of the child for
whom eligibility is being determined.
4
 For each group of 50 paid claims, we judgmentally selected 30 paid claims and used a simple random sample to
select an additional 20 paid claims.


                                                          4
   •   reviewed the selected 200 paid claims’ family case files (electronic or paper) to
       determine whether the files contained documentation for claims processing, and
       specifically:

           o determined whether billing of more than 2 units of service per day had supervisor
             approval and whether paid claims exceeded the approved number of units, and

           o analyzed instances in which the provider address and client address were the
             same; and

   •   discussed the results of our review with State agency officials on December 1, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

The State agency did not always maintain adequate documentation to ensure that the claims paid
for the childcare assistance program complied with Federal and State requirements. With respect
to client eligibility, the State agency did not always maintain adequate documentation for
verification of citizenship, need for service, income, and age. With respect to provider
eligibility, the State agency did not always maintain adequate documentation for background
checks and provider agreements. With respect to claims processing, the State agency did not
always maintain adequate documentation for supervisory approval of certain payments involving
both service units and client/provider addresses. These documentation deficiencies indicate that
the State agency’s childcare assistance program may be vulnerable to fraud, waste, and abuse.

Of the 200 claims that we reviewed, we identified 57 claims that had client eligibility
documentation deficiencies, 45 claims that had provider eligibility documentation deficiencies,
and 27 claims that had claims processing documentation deficiencies (some claims had
documentation deficiencies in more than one category) as identified above. We estimated that
the costs affected by these documentation deficiencies totaled approximately $15.8 million
(approximately $10.6 million Federal share).

In addition, the KinderTrack system allowed claims to be paid even when at least two significant
data fields—“provider type” and “paid date”—had entries of zero. Specifically, 4,669 paid
claims had entries of zero in the data field for “provider type,” and 31,045 paid claims had
entries of zero in the data field for “paid date.” Payments associated with these incomplete
claims totaled approximately $5.9 million (approximately $4.0 million Federal share).




                                                5
CLIENT ELIGIBILITY DOCUMENTATION DEFICIENCIES

Federal and State Requirements

The Personal Responsibility and Work Opportunity Reconciliation Act of 1996 (PRWORA)
established that the CCDF program is considered a Federal public assistance program. Title IV,
section 401, of PRWORA requires that in order to receive Federal public benefits, clients must
be citizens or qualified aliens. Furthermore, Title IV, section 432, of PRWORA requires that the
Lead agency verify that each client is a citizen or qualified alien.

Federal regulations (45 CFR § 98.16(c)(1)) require that a State Lead Agency’s CCDF plan
contain a description of how the CCDF program will be administered and implemented.

Federal regulations (45 CFR § 98.20(a)) state that to be eligible for childcare assistance, a child
shall:

   (1) (i) Be under 13 years of age; or,

       (ii) At the option of the Lead Agency, be under age 19 and physically or mentally
       incapable of caring for himself or herself, or under court supervision;

   (2) Reside with a family whose income does not exceed 85 percent of the State’s
       median income for a family of the same size; and

   (3) (i) Reside with a parent or parents … who are working or attending a job training
       or educational program; or

       (ii) Receive, or need to receive, protective services and reside with a parent or
       parents … other than the parents(s) described in paragraph (a)(3)(i) of this
       section.

The Iowa CCDF State plan specifies that the State agency’s administrative rules and procedures
are to be used for the childcare assistance program.

State regulations (441 IAC 170) document the departmental requirements concerning the
implementation of the childcare assistance program. The IAC:

   •   requires that all applicants shall attest to the child’s citizenship or alien status and states
       that childcare assistance payments shall only be made for a child who (1) is a citizen or
       national of the United States or (2) is a qualified alien as defined at 8 U.S.C. section 1641
       (441 IAC 170.2(2)d);

   •   requires that for the child to be eligible for services, the child’s parent, guardian, or
       custodian must (1) attend an approved academic or vocational training, (2) be employed
       working 28 hours a week or an average of 28 hours per week over a month, (3) have




                                                  6
           protective needs for childcare, (4) have medical absence or incapacity, or (5) be seeking
           employment (441 IAC 170.2(2)b);

      •    establishes the threshold for financial eligibility for families, which sets the limits for the
           maximum monthly income by family size to be eligible for services and which requires
           that gross monthly income of the family be verified to establish eligibility (441 IAC
           170.2(1)); and

      •    states that “[c]hild care shall be provided only to children up to age 13, unless they are
           children with special needs, in which case child care shall be provided up to age 19” (441
           IAC 170.2(2)a).

Inadequate Documentation for Client Eligibility

The State agency did not have adequate documentation to support its determinations for client
eligibility. Of the 200 claims that we reviewed, we identified 57 claims that were not supported
by required documentation. 5

      •    For 42 claims, the case file contained no citizenship verification or Social Security
           number. Only U.S. citizens and qualified aliens are eligible for childcare assistance. In
           cases when citizenship or qualified-alien status is not documented, childcare assistance
           can potentially be provided and paid for noneligible participants. (We noted that for 151
           of the 200 claims, the State agency had not verified citizenship but had documented
           Social Security numbers.)

      •    For 12 claims, there was no evidence in the case file that documented that the client was
           eligible for services.

      •    For 10 claims, either the case file contained no documentation to support the income
           verification or the income verification was not completed in accordance with CCA
           manual provisions.

      •    For 4 claims, the client was over the age of 13 and there was no documentation in the
           case file that the child had special needs or protective needs.

PROVIDER ELIGIBILITY DOCUMENTATION DEFICIENCIES

Federal and State Requirements

Federal regulations (45 CFR § 98.40(a)(1)) require that a Lead Agency certify that it has put in
effect licensing requirements applicable to childcare services provided within the area served by
the Lead Agency.


5
    Some claims were missing more than one type of required documentation.



                                                         7
State regulations (441 IAC 170) require:

      •    licensed providers, registered providers, and nonregistered providers, including in-home
           providers, to pass a required background check, and that an evaluation be performed on
           individuals when a potential transgression has been identified (441 IAC 109.6(6),
           110.7(3), and 170.4(3)h);

      •    childcare providers to complete various eligibility forms (441 IAC 170.4(3)); and

      •    childcare providers to complete a provider agreement with the State agency (441 IAC
           170.4(7)).

Inadequate Documentation for Provider Eligibility

The State agency did not have adequate documentation to support its determinations for provider
eligibility. Of the 200 claims that we reviewed, we identified 45 claims that were missing
documentation supporting provider eligibility: 6

      •    For 32 claims, the provider file did not have documentation to support that all of the
           required background checks were performed or that the required evaluation in cases of
           potential transgressions had been undertaken.

      •    For 19 claims, the provider file did not contain all of the necessary eligibility forms.

      •    For 10 claims, the provider file did not contain a completed provider agreement with the
           State agency (part of which includes the provider rates approved by the State agency).

CLAIMS PROCESSING DOCUMENTATION DEFICIENCIES

Federal and State Requirements

The CCA manual requires supervisory approval for billings in excess of 2 units of service per
24-hour period. 7

State regulations (441 IAC 170.9) state that all childcare assistance overpayments are subject to
recoupment.

Furthermore, the CCA manual requires that when a childcare provider receives a duplicate
payment or a payment greater than allowed, the amount of the overpayment must be recovered.


6
    Some claims were missing more than one type of required documentation.
7
 According to the CCA manual, a “unit of service” is “a half day, which is defined as up to 5 hours of service
during a 24-hour period. The number of units of service approved each day is based on the hours the parent
performs an activity that meets the definition of a need for service including travel time.”



                                                         8
Inadequate Documentation for Claims Processing

The State agency did not have adequate documentation to support its determinations for claims
processing. Of the 200 claims that we reviewed, we identified 27 claims that were missing
documentation supporting supervisory approval for exceptions to policy and claims processing: 8

      •    For 18 claims, the client case file did not document supervisory approval for payments
           made in excess of 2 units of service per day.

      •    For two claims, the number of units of service billed and paid exceeded the number of
           units of service approved by the State agency.

      •    For nine claims, the provider’s address and the client’s address were the same. In cases
           when the provider and the client live at the same address and their relationship is not
           documented, childcare assistance can potentially and incorrectly be paid for cases in
           which parents are watching their own children.

INCOMPLETE CLAIMS

During the period of our review, the State agency used the KinderTrack system to process
childcare assistance claims. During our reconciliation of the claims data, we determined that the
“provider type” field and the “paid date” field were not always completed for all of the paid
claims.

The “provider type” field identifies the type of provider for which each claim is paid. We
identified 4,669 paid claims, totaling approximately $754,000, 9 that had a zero—an invalid
entry—in the “provider type” field. We also identified 31,045 paid claims, totaling
approximately $5.1 million, 10 that had a zero in the “paid date” field.

These errors indicate that the State agency did not have adequate procedures in place to ensure
that the childcare assistance claims were properly and fully completed before it made payments
to providers.

COSTS ASSOCIATED WITH DEFICIENCIES

The documentation deficiencies described above indicate that the State agency’s childcare
assistance program may be vulnerable to fraud, waste, and abuse. We estimated that the costs
affected by the eligibility and claims processing documentation deficiencies totaled
approximately $15.8 million (approximately $10.6 million Federal share). In addition, payments

8
    Some claims were missing more than one type of required documentation.
9
 The paid claims with a zero in the “provider type” field were excluded from the population from which we drew
our sample.
10
  The paid claims with a zero in the “paid date” field were included in the population from which we drew our
sample.


                                                         9
associated with the incomplete claims totaled approximately $5.9 million (approximately $4.0
million Federal share).

The State of Iowa does not currently have a waiting list for childcare assistance, but the potential
exists to initiate one in the future. If that measure becomes necessary, the deficiencies described
in this report could prevent eligible clients from receiving childcare assistance benefits.

RECOMMENDATIONS

We recommend that the State agency:

   •   use the results of this review to establish policies and procedures to help ensure
       compliance with the Federal and State requirements—to include requirements that relate
       to the maintenance of adequate documentation—for the childcare assistance program;

   •   determine the current eligibility of all clients and providers identified in this review with
       documentation deficiencies and ensure that further childcare assistance payments are
       denied for those clients and providers who are ineligible; and

   •   improve the processing of the childcare assistance claims within the KinderTrack system
       to ensure that the claims are complete.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency concurred with our first and second
recommendations and the associated findings and described corrective actions that it planned to
implement.

The State agency did not concur with our third recommendation or with its associated finding.
Regarding that recommendation, the State agency said:

       There was a problem with the report [the State agency] provided to [the Office of
       Inspector General] that inaccurately showed “zero” in the provider type and paid
       date fields. The providers in the system contain the proper codes and payments
       were made accurately. We know that the process now works well and payments
       are made as they should be; it is the report that does not reflect this.

The State agency added that it would make the necessary report corrections to the KinderTrack
system.

The State agency’s comments appear in their entirety as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State agency’s comments regarding the data fields with entries of zero, we
maintain that this finding and recommendation remain valid. The State agency provided us with


                                                 10
claims data only, not with reports. The data fields with entries of zero appeared in the claims
data. We recognized that, by the end of our audit period, the number of claims with entries of
zero in the “paid date” data field had been substantially reduced. However, the number of claims
with entries of zero in the “provider type” data field had not been significantly reduced;
moreover, there were still claims with entries of zero in both data fields. The claims can not be
considered complete unless they are accurately reported by the State agency’s system.




                                               11
APPENDIXES
                                           APPENDIX A: SUMMARY OF SAMPLED ITEMS
                                                                                                                        Page 1 of 9
                                                                        Provider Eligibility Missing   Claims Processing Missing
                             Client Eligibility Missing Documentation
                                                                              Documentation                 Documentation

          Paid  Deficient                    Need                                                  Units in
Sample                       Citizenship             Income      Over Background Required Provider          Units Not     Same
          Claim  Claim                        For                                                  Excess
 Order                        w/ SSN                Verification 13     Checks    Forms Agreement           Approved     Address
         Amount Amount                      Service                                                of Two
LJS1      204.00    204.00                                                           No
LJS2      250.00      0.00
LJS3      300.39    300.39       No                                      No
LJS4      144.00    144.00                                               No
LJS5      250.00    250.00       No                                      No
LJS6      572.00      0.00
LJS7      343.20    343.20       No           No        No        No
LJS8      300.39      0.00
LJS9      371.80      0.00
LJS10     257.40      0.00
LJS11     337.92     94.86                                                                      No     No
LJS12     221.00    221.00                                               No
LJS13     127.50      0.00
LJS14     246.84    246.84                                                           No         No     No
LJS15     172.00      0.00
LJS16     127.50    127.50       No                     No
LJS17     229.50    229.50                              No
LJS18     204.00      0.00
LJS19     252.46      0.00
LJS20     140.25    140.25                                                           No
LJS21      63.75     63.75                                               No
LJS22     157.95    157.95                                               No
LJS23      63.24     63.24                    No        No
LJS24     400.40    400.40                              No               No
LJS25     267.20    267.20                                               No
                                                                                                                        Page 2 of 9
                                                                        Provider Eligibility Missing   Claims Processing Missing
                             Client Eligibility Missing Documentation
                                                                              Documentation                 Documentation

          Paid  Deficient                   Need                                                  Units in
Sample                       Citizenship            Income      Over Background Required Provider          Units Not      Same
          Claim  Claim                       For                                                  Excess
 Order                        w/ SSN               Verification 13     Checks    Forms Agreement           Approved      Address
         Amount Amount                     Service                                                of Two

LJS26     316.20      0.00
LJS27     172.11     30.72                                                                             No
LJS28     246.00      0.00
LJS29     255.00    255.00                                               No
LJS30     221.00      0.00
LSS1      242.25    242.25       No
LSS2      284.58      0.00
LSS3      103.32      0.00
LSS4       76.50      0.00
LSS5      255.00      0.00
LSS6      229.50    229.50       No
LSS7      114.80    114.80                                               No
LSS8      127.50    127.50                                                           No         No
LSS9      202.50      0.00
LSS10     255.00      0.00
LSS11     252.20      0.00
LSS12     126.28    126.28                                                           No         No
LSS13     120.00    120.00                                               No
LSS14     140.25    140.25                              No
LSS15     114.80      0.00
LSS16     267.20      0.00
LSS17     114.80    114.80                                               No
LSS18     189.72      0.00
LSS19      67.80     67.80                  No
                                                                                                                        Page 3 of 9
                                                                        Provider Eligibility Missing   Claims Processing Missing
                             Client Eligibility Missing Documentation
                                                                              Documentation                 Documentation

          Paid  Deficient                   Need                                                  Units in
Sample                       Citizenship            Income      Over Background Required Provider          Units Not      Same
          Claim  Claim                       For                                                  Excess
 Order                        w/ SSN               Verification 13     Checks    Forms Agreement           Approved      Address
         Amount Amount                     Service                                                of Two

LSS20     156.80      0.00
RJS1      229.60    229.60       No                                      No          No         No
RJS2      247.20     82.40                                                                             No
RJS3      205.60    205.60       No                     No
RJS4       45.92     11.48                                                                             No
RJS5      385.56    385.56       No                                      No
RJS6      275.40      0.00
RJS7      275.40      0.00
RJS8      224.40    224.40                                        No     No
RJS9      360.00    360.00                                                                      No     No                   No
RJS10     229.60    229.60                                               No
RJS11     135.00      0.00
RJS12     244.80    244.80                                               No
RJS13     229.60      0.00
RJS14      43.12     43.12       No
RJS15     206.64      0.00
RJS16     110.16     36.72                                                                             No
RJS17      63.24     63.24                                                           No
RJS18     244.80    244.80                                               No
RJS19     725.00    725.00                                                           No
RJS20      73.44     73.44       No
RJS21      91.84     91.84                                               No
                                                                                                                        Page 4 of 9
                                                                        Provider Eligibility Missing   Claims Processing Missing
                             Client Eligibility Missing Documentation
                                                                              Documentation                 Documentation

          Paid  Deficient                   Need                                                  Units in
Sample                       Citizenship            Income      Over Background Required Provider          Units Not      Same
          Claim  Claim                       For                                                  Excess
 Order                        w/ SSN               Verification 13     Checks    Forms Agreement           Approved      Address
         Amount Amount                     Service                                                of Two

RJS22     149.24      0.00
RJS23     149.24      0.00
RJS24     137.76      0.00
RJS25     247.86     27.54                                                                                       No
RJS26      85.50      0.00
RJS27     200.60      0.00
RJS28     220.00    220.00       No
                              No
RJS29     157.92      0.00
RJS30     234.60    234.60       No

RSS1      149.24      0.00
RSS2      114.80      0.00
RSS3      150.00    150.00                  No
RSS4      103.32      0.00
RSS5      258.96    258.96       No

RSS6      229.60      0.00
RSS7      229.60      0.00
RSS8      229.60      0.00
RSS9       90.00      0.00
RSS10     244.80      0.00
RSS11     170.60      0.00
RSS12     244.80      0.00
RSS13      88.24     88.24       No

                                                                                                                        Page 5 of 9
                                                                        Provider Eligibility Missing   Claims Processing Missing
                             Client Eligibility Missing Documentation
                                                                              Documentation                 Documentation

          Paid  Deficient                   Need                                                  Units in
Sample                       Citizenship            Income      Over Background Required Provider          Units Not      Same
          Claim  Claim                       For                                                  Excess
 Order                        w/ SSN               Verification 13     Checks    Forms Agreement           Approved      Address
         Amount Amount                     Service                                                of Two

RSS14      10.20     10.20                  No
RSS15     220.00    220.00       No                     No
RSS16      10.20     10.20                                               No
RSS17     122.40    122.40                                               No
RSS18     122.40      0.00
RSS19     163.20    163.20       No
RSS20     244.80      0.00
IHJS1     612.90      0.00
IHJS2     507.50    507.50       No                                                                    No
IHJS3    1015.00   1015.00       No                                                                              No
IHJS4     676.00    676.00       No
IHJS5     725.00    725.00       No
IHJS6     362.50    362.50       No
IHJS7     652.50    652.50       No
IHJS8     227.85    227.85                                               No          No                No
IHJS9     835.20    208.80                                                                             No
IHJS10    706.00      0.00
IHJS11    696.00    696.00                  No          No
IHJS12    398.75    398.75       No
IHJS13    543.75    543.75       No         No
IHJS14    471.25    471.25                  No                                       No                                     No
IHJS15    725.00      0.00
                                                                                                                        Page 6 of 9
                                                                        Provider Eligibility Missing   Claims Processing Missing
                             Client Eligibility Missing Documentation
                                                                              Documentation                 Documentation

          Paid  Deficient                   Need                                                  Units in
Sample                       Citizenship            Income      Over Background Required Provider          Units Not      Same
          Claim  Claim                       For                                                  Excess
 Order                        w/ SSN               Verification 13     Checks    Forms Agreement           Approved      Address
         Amount Amount                     Service                                                of Two

IHJS16    580.00      0.00
IHJS17    725.00    725.00                                               No
IHJS18    140.20    140.20       No
IHJS19    652.50    652.50       No
IHJS20    507.50    507.50       No
IHJS21    725.00    725.00       No                                      No          No                                     No
IHJS22   1015.00   1015.00                                                           No                No                   No
IHJS23    853.90    853.90                                                                             No
IHJS24    906.25    181.25                                                                             No
IHJS25    143.80      0.00
IHJS26    725.00    725.00                                               No
IHJS27    725.00      0.00
IHJS28    725.00      0.00
IHJS29    725.00    725.00                                                           No         No
IHJS30    725.00      0.00
IHSS1     725.00      0.00
IHSS2     676.00      0.00
IHSS3     117.76    117.76                  No                           No          No         No
IHSS4     580.00    580.00                                               No          No         No
IHSS5     507.50    507.50                                               No          No
IHSS6     833.75    145.00                                                                             No
IHSS7     725.00      0.00
                                                                                                                        Page 7 of 9
                                                                        Provider Eligibility Missing   Claims Processing Missing
                             Client Eligibility Missing Documentation
                                                                              Documentation                 Documentation

          Paid  Deficient                   Need                                                  Units in
Sample                       Citizenship            Income      Over Background Required Provider          Units Not      Same
          Claim  Claim                       For                                                  Excess
 Order                        w/ SSN               Verification 13     Checks    Forms Agreement           Approved      Address
         Amount Amount                     Service                                                of Two

IHSS8     725.00      0.00
IHSS9     300.50     60.10
IHSS10    701.00      0.00
IHSS11    459.20    459.20       No
IHSS12    696.00    696.00       No
IHSS13    652.50    652.50                  No
IHSS14    240.10    240.10       No
IHSS15    358.05    358.05                                               No
IHSS16    398.75    398.75                                                           No
IHSS17    725.00    725.00       No
IHSS18    471.25      0.00
IHSS19    543.75    108.75                                                                             No
IHSS20    340.50      0.00
URJS1     143.80      0.00
URJS2     139.84    139.84       No
URJS3     143.80    143.80       No
URJS4     114.66    114.66                                               No          No         No                          No
URJS5     122.23      0.00
URJS6      14.72     14.72       No
URJS7     163.80      0.00
URJS8     129.80      0.00
URJS9     143.80      0.00
                                                                                                                        Page 8 of 9
                                                                        Provider Eligibility Missing   Claims Processing Missing
                             Client Eligibility Missing Documentation
                                                                              Documentation                 Documentation

          Paid  Deficient                   Need                                                  Units in
Sample                       Citizenship            Income      Over Background Required Provider          Units Not      Same
          Claim  Claim                       For                                                  Excess
 Order                        w/ SSN               Verification 13     Checks    Forms Agreement           Approved      Address
         Amount Amount                     Service                                                of Two

URJS10    184.00    184.00                                        No
URJS11     58.88      0.00
URJS12    100.66    100.66                                                                                                  No
URJS13    122.85    122.85                              No
URJS14    103.32      0.00
URJS15    114.80      0.00
URJS16     40.80     40.80       No
URJS17    158.10      0.00
URJS18     11.48      0.00
URJS19     73.60      0.00
URJS20    255.00      0.00
URJS21    143.80      0.00
URJS22    147.20      0.00
URJS23    143.80      0.00
URJS24    132.60      0.00
URJS25    163.80      0.00
URJS26    186.94     43.14                                                                             No
URJS27     73.60      0.00
URJS28    137.28    137.28                                                                                                  No
URJS29     21.96     21.96       No         No
URJS30    129.80    129.80       No                                                                                         No
URSS1     114.80      0.00
                                                                                                                              Page 9 of 9
                                                                             Provider Eligibility Missing    Claims Processing Missing
                             Client Eligibility Missing Documentation
                                                                                   Documentation                  Documentation

          Paid  Deficient                   Need                                                  Units in
Sample                       Citizenship            Income      Over Background Required Provider          Units Not               Same
          Claim  Claim                       For                                                  Excess
 Order                        w/ SSN               Verification 13     Checks    Forms Agreement           Approved               Address
         Amount Amount                     Service                                                of Two

URSS2      57.64      0.00
URSS3     143.80      0.00
URSS4      73.60     73.60                                                    No
URSS5     143.80     43.14                                                                                       No
URSS6      94.80      0.00
URSS7     132.48      0.00
URSS8     206.64      0.00
URSS9     163.80      0.00
URSS10     71.90     71.90        No
URSS11     93.47     93.47                                                    No           No
URSS12     57.52      0.00
URSS13     80.96      0.00
URSS14     71.90     71.90        No
URSS15     35.95      0.00
URSS16    103.04    103.04                      No                                                               No
URSS17    117.76    117.76                                                                                                          No
URSS18    115.38    115.38        No
URSS19    122.85      0.00
URSS20    143.80      0.00
Total                        42            12        10         4       32            19         10         18        2       9
                                                                                          Page 1 of 2


       APPENDIX B: SELECTION OF 200 CHILDCARE ASSISTANCE PAID CLAIMS 

                    AND THE ESTIMATION METHODOLOGIES


SELECTION OF 200 CHILDCARE ASSISTANCE CLAIMS

We selected 200 childcare assistance (CCA) claims by splitting the CCA claims into four
populations by provider type (licensed centers, registered homes, in-home, and non-registered
family homes and exempt-from-licensing providers). We judgmentally selected 30 CCA claims
for each provider type. For the judgmentally selected CCA claims, we selected:

       	 two CCA claims for each month in our audit period and

       	 the 6 remaining claims from any of the 12 months in our audit period.

We then selected a random sample of 20 CCA claims from the sample frame for each provider
type from the remaining claims (549,501 less the 120 judgmentally selected claims).

ESTIMATION OF THE COSTS AFFECTED BY DOCUMENTATION DEFICIENCIES
FOR THE CHILDCARE ASSISTANCE PROGRAM

We used the results of the 200 CCA claims reviewed to determine whether the Iowa Department
of Human Services (State agency) maintained documentation to support its determinations for
client and provider eligibility and for claims processing. In addition, we used these results to
estimate the costs affected by eligibility and claims processing documentation deficiencies for
the CCA program from April 1, 2010, to March 31, 2011.

In total, there were 549,501 CCA claims totaling $87,316,6211 for the audit period. After the
selection of the judgmental CCA claims, the remaining CCA claims were as follows by the four
provider types (sample frame):

       	 licensed centers: 226,532 CCA claims totaling $39,229,688;

       	 registered homes: 226,502 CCA claims totaling $36,351,530;

       	 in-home providers: 3,051 CCA claims totaling $1,637,499; and

       	 non-registered family homes and exempt-from-licensing providers: 93,296 CCA claims
          totaling $10,061,810.

CALCULATION OF THE ESTIMATED COST AFFECTED BY DOCUMENTATION
DEFICIENCIES

We calculated the documentation deficiency rate identified in the random sample claims for each
provider type (see Appendix C for an explanation of the calculation of this rate). We applied this
                                                            
1
    This amount represents the total claims including the judgmentally selected claims.
                                                                                       Page 2 of 2


rate to each provider type’s sample frame to estimate the dollar amount of claims that were
subject to the same adverse condition and cause as the judgmentally selected claims (sample
frame documentation deficiency). We then calculated the documentation deficiency rate
identified in the judgmentally selected sample for each provider type and applied this rate to the
sample frame documentation deficiency. Doing so allowed us to estimate the pervasiveness of
the adverse condition and cause to determine the costs affected by the documentation deficiency.
We added the judgmentally selected documentation deficiency dollar amount to the estimated
costs affected by the documentation deficiency to determine the total estimated costs affected by
the documentation deficiency for the period. In addition, the CCA claims we reviewed involved
a mix of Federal and State funding. We determined the percentage of Federal funding used in
the payment of CCA claims (see Appendix C for the estimation results).
                                                      APPENDIX C: ESTIMATION RESULTS



                                                                        Licensed Registered                          Non-Registered &
                                                                         Centers      Homes   In-Home            Exempt-from-Licensing Total Results
      Sample Frame                                              1/   $39,229,688 $36,351,530 $1,637,499                    $10,061,810

      Random Sample Results                                     2/
      Total Amount Reviewed                                                $3,441         $3,197      $10,777                       $2,146
      Documentation Deficiency Amount                                      $1,283         $1,023       $5,049                         $690
      Documentation Deficiency Rate                             3/        37.29%         32.00%       46.85%                       32.15%

      Sample Frame with Documentation Deficiency                4/   $14,627,053 $11,632,035        $767,165                   $3,235,158

      Judgmental Sample Results                                 5/
      Total Amount Reviewed                                                $7,215         $6,229      $19,029                       $3,621
      Documentation Deficiency Amount                                      $3,540         $3,734      $12,735                       $1,194
      Documentation Deficiency Rate                                       49.06%         59.95%       66.92%                       32.97%

      Estimated Costs Affected by Documentation
        Deficiency                                              6/    $7,176,683     $6,972,872     $513,419                   $1,066,771
      Judgmental Documentation Deficiency                                 $3,540         $3,734      $12,735                       $1,194
      Estimated Total Costs Affected by Documentation
        Deficiencies                                            7/    $7,180,223     $6,976,606     $526,154                   $1,067,965

      Aggregate Percentage                                      8/        67.30%         67.30%       67.30%                       67.30%
      Federal Share of the Estimated Costs Affected by
        Documentation Deficiencies                              9/    $4,832,290     $4,695,256     $354,102                     $718,740     $10,600,388

Footnotes

1/        The sample frame is the total amount of childcare assistance (CCA) claims excluding the judgmentally selected claims.


2/        The random sample results are the results of our review of the 20 randomly selected CCA claims for each provider type.


3/        The documentation deficiency rate was computed by dividing the documentation deficiency amount (numerator) by the total amount reviewed 

          (denominator). The documentation deficiency amount is the dollar amount of CCA claims with deficiencies.

4/        The sample frame with documentation deficiency is the amount of CCA claims with the dollar amount having a documentation deficiency as a
          result of the random sample results. This was computed by multiplying the sample frame amount by the documentation deficiency rate.

5/	       The judgmental sample results are the results of our review of the 30 judgmentally selected CCA claims for each provider type.

6/	       The estimated costs affected by documentation deficiencies were computed by multiplying the sample frame with documentation deficiency by
          the judgmental sample results documentation deficiency rate.

7/	       The estimated total costs affected by documentation deficiencies were computed by adding the costs associated with documentation deficiencies
          to the judgmental documentation deficiency amount identified during our review of the judgmentally selected claims.

8/	       The aggregate percentage was computed from the Child Care and Development ACF-696 Financial Report provided by the State agency and the
          supporting documentation. We computed the aggregate percentage by identifying the amount of CCA claims used to expend the Federal funds
          divided by the total CCA claims paid by the State agency from April 1, 2010, through March 31, 2011.

9/	       The Federal share of the estimated costs affected by documentation deficiencies is the total costs affected by documentation deficiencies
          multiplied by the aggregate percentage.
                                                                                                                                                          Page 1 of5


                                                   APPENDIX D: STATE AGENCY COMMENTS 





                                                                                           ·• '~


                                                  ey            .
                                                             or~cS;~t!~:r~lfgr ~l!dif~,ervi~s
                                                             ·· G:ena~l · .· ·             .··

                                            0\:sM~r ~=toom042'9' ,•' 

                                                        -~ , 981.... ' ._S
                                             , ':.•'t~l'cf"~\1'1\l
                                           _.:                           -: .   
 ·:.,\'



             • o~irir:.Mr~ Ci!:&>$1ey:
                Ehe1()$~;~d ~~s:e ft~~~rnmetits f®lm ~h~lPWa :}l)~partrnerit·of hlp.roan Se.r;vl~s (!l1f!S~ QJJ the
                JQtxe~
                d:ar~'
                                 · ·
                                       .
                                           < a~~~ ·-·
                                              :n ~ ·wr.·
                                                                                · · · · · ' ·· if:i9
                                                                                  1
                                                                                                          ·       · r<Sei:l~ral
                                                                                               ' ·off"r~otli:fspect~
                                                                                                                                (0l!SJr:e~iewo;fth:e,()hUd
                                                                                                                           · s ·: ·
                 •"·· ··   '/·         "<M"'>       -· --·


                                                                                                                                                 ''I .
                                                                                                                                                  '<can ·b:~<   --.·--,.,.



                                                                                                                                                 ...:.




                                                 ,;;.

                ·	ec;.~<Sr~ Wi!:l!ike, .4;udltMahfjger. 

                A'ttachm~ots· 





._..   _________________________ 	                            -~-
                                                                                                   - - - - - - - - -....- - - - ----------·-     _______...____
                                                                                             Page 2 of5

                                                                                                      .




RE: .'A~07-11·.03164


                        IOWA DEPARTMEf')IT OF HUMAN SERVICE$
                           RESPO"NSE TO 01<3: DRAFT REPORT: ·

   Jowa ·Lac.~ed   Some Doc.umentatlon tor It$ C.hildcare·A~Jsistanc_e Program .Oialms.
                               Report·Num~er,   A-0.7-11..03:1'64            · ··

Background

The u.S. Department of .Health and.Human Services (HHS), Administration for Children and
Families (ACF), is responsible for promoti{lg the.economic and social well-being of children, .
families, and communities. ACF carri~s out this responsibility through grants and contracts to
State, county, city, and tribal governments, as well as public aM·private locaLagenbtes.

Pursuant to the Child Care and Development Block Grant Act and ·section 418 of fhe Social
Se'curity Act, the Child Ca~e and Development Fund (CCDF} is a ~ederal program that
assists low-income families, families:receiving temporary public asS1stance, and families·
transitionin'g from public assistance to obtain childcare so.that family m~mbers can work or
attend training o:reducatioo.
                                                               >
States provlde subsidized childcare·services to eligible famllie.s through certificates
(vouchers) or through grants \~nd contracts witH providers. Parents:may ~elect a chUdcare
prov)der that s~tisfie.s<a~plicable State and Io:car reqolrements ·    · .      .. ·

Uo\1er the CCDF.program, Slate. Let:ld Ager{cles have con$1derable l~titudelrl administering
and ·implernenting)helr chifdc;;~re programs' Every_2 years eac;h State must develop, and
submltto.ACF for apprpval, a COOP State,ptan. The State plan must designate a Lead
Agency that has t~e responsibility to administer and maintain .overiill responsibility for   .
chlldcare programs: In' Iowa!' the Department of Human Services (DHS) is the tead Agency .
and is respqnsible·for administering the CCDF and other childcare assistance)ragram·s.


OIG·Findlngs and Recommendations

                                                        to
DHS did, not always maintain adequate documentation ensure that th~ paid claims forthe
childcare assl!itance program tompll~d With Federal and State requfrements. .The ·.  _­
documentation deficiencies indicated that the childca.re assistance program might be
vulnerable to fraud, waste, and ab,use,               ·      ·· ·

OIG recommen'ds that DHS:
   • Use the results of the review' t9 estabiish polieles and procedures to ensure
      tompllanc;ewith the Federal and Stale requirements, tQ inciude requireir\ents that
      rE!Iate to the maintenance of adequate documentation, 'forthEI chfldear.e assistance
      prosr~ms; ·                  ·                          ·
                                                                                                   Page 3 of5




   • Pe-tgrmlf)e the c;umant el!g!bility of au cU~nts . and prpvlders -fdentified in the review with
       documentation deficiEmcies and ensure that further childcare $S's1stance payments are
       denied for those clients and providers who are ineligible; and
               '      -	                                                                  '


   • 	 Improve the proce.ssin9 of the childcare aS$istance claims within the !<inderTrack 

       system to ensure the claims are complete. 



DRS Respc:)ttse

Please see the i:Jl~cussion for each ofthe findings and recommendations as.detailed below.
Following are the'corrective actions taken ~;~nd planned for_each finding:__


Client EUglbiUf:Y Docurnlilnt8,tiQ~ P~fl~lencie$,

In Ol53's evaluation; DHS qfd not b~ve adequate:documentation to supportslts determination
for client eligibility in 57 ofthe_200 claims reviewed (some claims were missing more than
one type of required docurrientafion): .                                      ·               ·

   • 	 42 claims lacked citizenship verification or Social Security numbers;
   • 	 12 clalrris lacke<l evidence that'the client was el!gible for services;
   • 	 10 clairris lacked adequate income verification:
   • 	 4 claims lacked-special needs or protective needs ,documentation to support services
       for clients over tl)e age of ta                                         ·           ·
Re.sponse:
Iowa DepartmEmt.ol Human' services concurs with the referenc~d finding ~nd .the ·
re.commendatlop, with limitations based on th,e following action steps below'

To aCid~ss this finding, OHS has takeh and Will take the foll6Wing actions: ·

   • 	 .By J.uly 1, 2013, .BHS wilf rev,iew the ,57 claims with ·questioned-client eligibility to
        ensure childcare assistance payrr~ents are denied for those clients who are Ineligible.
   • 	 Based on the results otourreview,.DHSwill revise pplicies aod procedures as needed
     · related ·to the.gathering and maintenance ·orade,quate client eligibiiJty documentation.
        These ptilleies and procedures willbe re,Viewedwith c'hildcare.assistance eligibilitY
        determin~;~ti6ii staff by January 1, 2014.
   • 	 DHS acknowledges the risk in having 99 sep~rate counties handling ease --                    .
        doeumenta'tion. In response to lhls ooncern we cent~lized CCA operations              onJuly 1, .
        2010, tel improve ct>nsisteney:and standardization of work processes. _The auditp~riod
        occJJrred prior t<>Jhe transition to the, centrl~llzed operation.· DHS anticipates great¢r
        efficiency
         '	
                    and accurapy in-determining cliente(jglbility ln the
                                              '-'         -·- ­         . future.
                                                                               "
                                                                                   ·      .       ·
                                                                                                                                                                                                                                                         Page 4 of5




      Provider Eligibility Docpmentation Deficiencie~ ·

      In OIG's evaluation, 01-'IS did noth~VE;t adequate doc'um~ntation to supports its
      determination!! for provider eligibility.in 45 of the.200 claims reviewed (some claims were.
      missing,more than one type·o(requlred documentation):·                 .    .   .          ·.
                          ~                                          .~                                                                                                          ~--   -   .· '   "'   '   . ·. ,.   "'   . .   •.   ' '   '   '.   ~

            • 	 ·32 claims lacked require~ backgr:ounq checks or teqoired re.cord :evalw:ltions:
                                                                                                              '   .   .       '   ,. ·.   - -. .   "'   .       .   '   .   ·.
                                               .. ,   .. . 
    .'        '   .   .   '   "   . --   ,· _ .
        '        ''   .       . ..   -'4




            •. 	 ·19 cl~imslacked all necessar}l'provider eligibility forms;
            • . 10 cl~lms iacked
                 ~                         T                   ..
                                                                     acompleteq provider agr~ernent,                      -               -                 -




      REi!lpohsei·
      Iowa Oepartmemt.ofHumah SeiVicesconc~rs with:the referenced flndin'g and the · 

      recommendation, :wtth limitations based ori t~ 'follbWillg action st~ps below: 


      To address this'finding, .DHS has taken ·~nd will take the foU~wing.actions: .

            . • 	 By July 1, 2013, otis will review the 45 claims With ctt.Jestioned ptovider eligibility ta
                  ensu~e qhildcare assistance. payments are denied for thosEI prpviders who are
                   ineligible._ ·
              • 	 Based on tn~ results of our review, DHs will revf13.e policies 'and prOcedur,es as needed
                   related totha.gatheri'ng· and,maintenanc~ of adequate providerefigibili~ · . .                 . ·.
                   d.ocurnentation. These policies and p'rocedures will be reviewed with'childcar:e .                   ·
                   lissistance.   reglstraflo.t:rstaff bY  January,   ·1,     .
                                                                          20l4.  ·               ·
              • 	 DHSacknowledgesth~risi{Jn having 99 separate co'unties handling case                        .     ·
                   documentation., rn.response          'to 11;)is cpncem   we  centralized CCA operatfons on   July.t, ·
                   201 o:. to improve consistency ·aO:d·standargization otwoi'k process'es. Tne audit p-eriod
                    occurred prior .to the transition fo the eeotrail:zed operation, D.HS. antiCipates greafer
                 ..efficiency·and accuracy in determining client eligibility in,the future. . .             '         .


      Claims Processing OocumEmtatlon Oeficiencil fs

      In OIG's evaluation, DHS did not ha\i'e·adeqljate documentation to support its determination
      for claims processing in 27 of the 200 claims reviewed (some claims were mi~sing more than
      Me type of. reqUired documentation):                ·

             •    18 claims lackeo'supervisory ~PProval for pejymentsmade i):l excess of:2 units of
                     s'eiviCe. p.er day;                .          ' · .	                           .
             • 	 For'2 claims, the nimiber of un!ts   of  sl3rvice  billed ~nd paid exce-eded 'the number of
                  units of ser:viee'apprpved t>Y OlcjS;                        .         ,
             • 	 $ claims hic~e!:l docume('ltatton for the relationship status betWeerf a provider and
                · clientwh~re poth reside at ~he_ satne address. . ·              ·




                          · · ---·
L----------'-------------·~
                                                                                                                                                                                 -- -- - - ----- - - - - - - - -·- - ---·-·
                                                                                                                 Page 5 of5




           RE: A-07-~1.:03164


           Re$pOI'i$e;

           Iowa Department of Human Services concurs with the referenced fi11i:ling -and the 

           recommen<;Jation, with limitations based on,f.hefollowirig -action steps below: 


         _to address this finding, OHS has takerfand will take the.following actions: ­

              . - By Joly 1, 2013, DHS_will review the 27 claims with questioned clairps proi:essing to
                  ensure childcare assistance payments are being'cafculated and p~id correctly.
              • 	 Based on the n:!S~Jlts of ourreview, OHS will reVlse policies and p(ocedures as needed ­
                  relatect to the gat{lering.and roain.t~nance of ;;~_dequ!!te cl.aims docUmentation. l'hese
                  p0llcles and procedures wlU be reviewed with child care assis.tance staff by January 1,
                  2014.                      .-	                                                     '

              • 	 DHS acknowledges the risk in having SS sep!!tate c:;ounties Mndling case
                   documentation.. 'Jn response to this c:oncem we centralized CCA·operations on ;July 1,
                   2010, to improve consistency and standardization of work processes. The audit period ·
                  .occurred prior to the transition to the cimtr'alized operation. DHS anticipates greater
                   ~fficiency and
                          , _. . accuracy
                                      .     .
                                              iri determining. client eligibility.. in the fOtore. ­

           lncoinprete·Ciaims

           In OJG!s ev~luation, DHS did nothave adequate procedures jn pface to .ensure the. childcare
           assistance claims, proee~sed by 1he Kinf:lerTraek system, were properly aiid·fully completed . ·
           before
             .	
                  payment were made. ..., - ·                   . '

               •· 	41669 paid·oraims .ti:>tJtained a ·~ero" - anlnvand en ttY -- in the •grqvider type" field;
               • 	 3'1,045 paid claims contained                             . field.
                                                    a "zero· in the "paid date"                    ·
                                         ~       '  '           ..




           R~spons&:

           iowa Departmeritof Human Services does oot .concur with the referencedJil\ding and the
           recor(nmendation. There wa_s a·problern withJhe_repoit QHS pr()Vided to OIG that        .
           inaccurately showed uzeron in the provider type and paid date fields. The providers·in the
           system contain the proper codes and payments were made accurately. We know that the ·
           process now works well·and payme_ntS are made as !hey shoUld be; it is the report that does
           not reflect this.                                                                     ­

           To address thi~ finding, DHS will take the following actions:

               • 	 By, Jufy 1,2013;   qHs Will makethe necessary teportcorrectlonsln the Klnder'rrack
                   system.                                           ··




-----------------------------------------------~-                                    --- ----   -------- - - - - -
